Application No.

IN THE SUPREME COURT OF THE UNITED STATES

eee
RASHEIK HARRIS
Petitioner,
v.
UNITED STATES
Respondent.
Bete He ae ae

ON PETITION FOR WRIT OF CERTIORARI TO
THE COURT OF APPEALS FOR THE EIGHTH JUDICIAL CIRCUIT

APPLICATION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, Rasheik Amond Harris, requests leave to file his Petition for
Writ of Certiorari without prepayment of costs and to proceed in forma
pauperis pursuant to Rule 39. Mr. Harris has been represented by counsel
appointed pursuant to the Criminal Justice Act (18 U.S.C. ยง 3006A) in both
the District Court and in the Eighth Circuit Court of Appeals. The order
appointing undersigned counsel to represent Mr. Harris in the Court of

Appeals for the Eighth Circuit is attached.
Respectfully submitted,

/s/ Kathryn B. Parish
Carlyle Parish LLC
Kathryn B. Parish

3407 Jefferson, #128

St. Louis, MO 63118
814-392-0120
Kay@carlyleparishlaw.com

ATTORNEY FOR PETITIONER
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 18-2481
United States of America
Appellee
v.
Rasheik Amond Harris

Appellant

 

Appeal from U.S. District Court for the Eastern District of Missouri - Cape Girardeau
(1:17-cr-00044-SNLJ-1)

 

ORDER
The motion to withdraw as appointed counsel filed by Mr. Preston Humphrey, Jr. is
granted.
Attorney, Kathryn Parish, is hereby appointed to represent appellant in this appeal under
the Criminal Justice Act. Information regarding the CJA appointment and vouchering process in

eVoucher will be emailed to counsel shortly.

November 06, 2018

Order Entered under Rule 27A(a):
Clerk, U.S. Court of Appeals, Eighth Circuit.

/s/ Michael E. Gans

Appellate Case: 18-2481 Page:1 Date Filed: 11/06/2018 Entry ID: 4723320
